CERTIFICATE OF SERVICE
NO. 20-355
Arctic Cat Inc.
Petitioner(s)
v.
Bombardier Recreational Products Inc. and BRP U.S. Inc.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
LAMBETH MAGNETIC STRUCTURES, LLC AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S),
by mailing three (3) true and correct copies of the same by USPS Priority mail, postage prepaid for
delivery to the following addresses:
John Caviness O'Quinn
Kirkland & Ellis LLP
1300 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5191
john.oquinn@kirkland.com
Counsel for Arctic Cat Inc.

Louis W. Tompros
Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street
Boston, MA 02109
(617) 526-6886
louis.tompros@wilmerhale.com
Counsel for Bombardier Recreational Products
Inc., and BRP U.S. Inc.

Lucas DeDeus

September 28, 2020
SCP Tracking: De Mory-701 El Camino Real-Cover Cream

